Nos. 19-251, 19-255

 

IN THE

Supreme Court of the Cited States

AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE ATTORNEY GENERAL OF
CALIFORNIA,
Respondent.

‘THOMAS MoRE LAW CENTER,
Petitioner,

Vv.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS THE ATTORNEY GENERAL OF
CALIFORNIA,
Respondent.

Certificate of Compliance

As required by Supreme Court Rule 33.1(h), I certify that the Brief of
the Public Interest Legal Foundation, Center for Constitutional
Jurisprudence, Foundation for Michigan Freedom and Texas Public Policy
Foundation as Amici Curiae in Support of Petitioners contains 4,252 words,
excluding the parts of the brief that are exempted by Supreme Court Rule

33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on Sept. 24, 2019

 

Counsel of Record
